                             CLOSEOUT FOR M-94020004




                                                                .   L

                                                                                                      1
instcutional coordinator for all         (the group) NSF proposals. In addition, it was alleged
that the subjects failed to cite, in seven separate places in the manuscript, work done by the        i,
complainant, and, in one place, work accomplished by another group of researchers.
                                                                                                      r
                                                                                                      i
        Specifically, the complainant alleged that one figure from his proposal appeared in a
proposal written by subject #I. The complainant did not identify subject #l's proposal by             1
number or as one submitted to NSF. Nevertheless, OIG examined all subject #l's relevant NSF
proposals to determine if she had used the specific figure indicated by the complainant. This
figure was not observed in any of them. OIG was also unable to identify any single proposal
as the one indiiated by the complainant. This allegation has no substance.

        OIG was informed that the complainant had notified the institution of his allegations of
plagiarism (intellectual theft) related to the manuscript. As a consequence, the complainant and
subject #1 met with appropriate institutional representatives to resolve the situation prior to the
manuscript's publication.

         In its review of these allegations, OIG examined a copy of the manuscript, the final
 published paper, e-mail messages and letters from the complainant and subject # I concerning
,this situation, and the complainant's proposal.

        OIG determined that the information contained in the subjects' manuscript, allegedly
taken from the complainant's NSF proposal, was also contained in published abstracts and papers
authored by the complainant. OIG determined that the manuscript omitted only one necessary
reference to the complainant, and that all the proper citations appeared in the subjects' published
paper. OIG noted that, following the complainant's request that additional citations to him be
included, the subjects complied. When compared to the subjects' manuscript, the published

                                           Page 1 of 2                                    M94-04
                            CLOSEOUT FOR M-94020004

paper contained: two additional citations to the complainant's work; several passages citing the
complainant's past contributions; and two references to other scientists' work.

        OIG noted that a manuscript typically undergoes revision prior to the publication of any
article which then becomes the public record. Considering all of the circumstances of this
case-that only one necessary reference to the complainant's work had been omitted in the
unpublished manuscript; that the subject readily agreed to add numerous citations to the
manuscript; and that the published paper included all appropriate citations-OIG concluded that
this case should be closed.

cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                         Page 2 of 2
